U.S. Department of                  The Inspector General        Office of Inspector General
Transportation                                                   Washington, DC 20590
Office of the Secretary
of Transportation

August 24, 2012


The Honorable Darrell Issa
Chairman, Committee on Oversight
 and Government Reform
United States House of Representatives
Washington, DC 20515

Dear Chairman Issa:

Thank you for your letter of August 3, 2012, requesting that the Department of
Transportation (DOT), Office of Inspector General (OIG) provide information on the use
of seven-day letters by the IG community. Specifically, you requested the following: (1)
whether DOT OIG has issued any seven-day letters 1 since January 1, 2009; (2) any
serious or flagrant problems at DOT that were not reported to Congress; and (3) OIG’s
understanding of the IG Act’s 2 requirement in section 4(a)(5) to keep the Secretary of
Transportation and Congress “fully and currently informed”.

In response to your questions, the DOT OIG has not issued any seven-day letters to DOT
or otherwise reported particularly serious or flagrant problems through the specific
mechanism authorized in section 5(d) of the IG Act since January 1, 2009. We are also
unaware of any particularly serious or flagrant problems at DOT that have not been
reported to Congress since January 1, 2009.

We fully understand that we report not only to the Secretary, but also to Congress, and
that our responsibility is not limited to reporting only those problems we view as
particularly serious or flagrant. We also recognize that there are many instances where
Congressional action, through active oversight or legislation, is vital to addressing
problems identified by our work.

Consistent with this view, we take a broad reading of section 4(a)(5) of the IG Act to
keep the Secretary and Congress fully and currently informed of fraud and other serious
problems, abuses, and deficiencies relating to the administration of programs and
operations administered or financed by the Department. Accordingly, we take a number
1
    5 U.S.C. App. § 5(d)
2
    5 U.S.C. App. 3
                                                                                                  2

of steps beyond the reports required in section 5 of the Act, including regular and
proactive briefings with congressional staff on new and developing issues, involvement
and testimony at Congressional hearings, technical legislative drafting assistance on
matters relating to OIG work and recommendations, and informal communications by
phone and email with staff of relevant Congressional committees. For example, since
January 1, 2009, we have provided testimony or statements for the record at 31
Congressional committee hearings. 3 Additionally, we compile and proactively distribute
an Activity Report each month recapping our recently issued audits, new audit
announcements, controlled correspondence, testimony statements, public investigative
results and ARRA Advisories to a broad array of staff on Congressional committees of
jurisdiction, including the House Oversight and Government Reform Committee. A copy
of our latest Monthly Activity Report for July 2012 is enclosed. We also provide even
more immediate ways of receiving updates on our work and encourage Congressional
staff to utilize tools we make available on our web site using social media, RSS feeds,
and live email subscriptions.

Our many proactive measures of communication serve as built-in mechanisms for
achieving our goal of being as responsive as possible to our Congressional partners,
providing relevant and timely updates at critical stages of our requested and self-initiated
work. We are committed to our statutory obligation to keep both the Department and
Congress fully and currently informed about problems and deficiencies in DOT programs
and operations and the necessity for and progress of corrective action.

If you have any questions or need further information, please contact me at (202) 366-
1959 or Nathan Richmond, Director and Counsel for Congressional and External Affairs,
at (202) 493-0422.

Sincerely,




Calvin L. Scovel III
Inspector General

Enclosure




Control No. J-120808-001

3
    Copies of all DOT OIG testimony statements are made publicly available at: www.oig.dot.gov.
